HHS/OIG, Audit -"Ineligible Medicare Payments to Skilled Nursing Facilities Under the Administrative Responsibility of Arkansas Blue Cross and Blue Shield"(A-05-03-00086)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Ineligible Medicare Payments to Skilled Nursing Facilities Under the Administrative Responsibility of Arkansas
Blue Cross and Blue Shield" (A-05-03-00086)
October 21, 2003
Complete
Text of Report is available in PDF format (165 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine the extent of ineligible Medicare Skilled Nursing Facility (SNF) payments
contained in our database of payments made under the administrative responsibility of Arkansas Blue Cross and Blue Shield.  We
estimated that $1.1 million of ineligible SNF payments were made during calendar years 1997 through 2001.  The overpayments
occurred because of the absence of an automated cross-check, within the Centers for Medicare and Medicaid Services Common
Working File and the Fiscal Intermediary’s claims processing systems, verifying that a three consecutive day inpatient
hospital stay occurred prior to SNF admission.